No. 21A24
IN THE

Supreme Court of the United States
WHOLE WOMAN’S HEALTH; ALAMO CITY SURGERY CENTER, P.L.L.C. D/B/A ALAMO
WOMEN’S REPRODUCTIVE SERVICES; BROOKSIDE WOMEN’S MEDICAL CENTER, P.A.
D/B/A BROOKSIDE WOMEN’S HEALTH CENTER AND AUSTIN WOMEN’S HEALTH CENTER;
HOUSTON WOMEN’S CLINIC; HOUSTON WOMEN’S REPRODUCTIVE SERVICES; PLANNED
PARENTHOOD CENTER FOR CHOICE; PLANNED PARENTHOOD OF GREATER TEXAS
SURGICAL HEALTH SERVICES; PLANNED PARENTHOOD SOUTH TEXAS SURGICAL
CENTER; SOUTHWESTERN WOMEN’S SURGERY CENTER; WHOLE WOMAN’S HEALTH
ALLIANCE; ALLISON GILBERT, M.D.; BHAVIK KUMAR, M.D.; THE AFIYA CENTER;
FRONTERA FUND; FUND TEXAS CHOICE; JANE’S DUE PROCESS; LILITH FUND,
INCORPORATED; NORTH TEXAS EQUAL ACCESS FUND; REVEREND ERIKA FORBES;
REVEREND DANIEL KANTER; MARVA SADLER,
Applicants,

v.

JUDGE AUSTIN REEVE JACKSON; PENNY CLARKSTON; MARK LEE DICKSON; STEPHEN
BRINT CARLTON; KATHERINE A. THOMAS; CECILE ERWIN YOUNG; ALLISON
VORDENBAUMEN BENZ; KEN PAXTON,

Respondents.

APPLICANTS’ REPLY IN SUPPORT OF EMERGENCY APPLICATION TO JUSTICE
ALITO

MARC HEARRON

JULIE A. MURRAY
RICHARD MUNIZ
Center for Reproductive Rights
Planned Parenthood Federation of
1634 Eye St., NW, Suite 600
America
Washington, DC 20006
1110 Vermont Ave., NW, Suite 300
(202) 524-5539
Washington, DC 20005
mhearron@reprorights.org
(202) 973-4800
Attorney for Whole Woman’s Health, Whole
julie.murray@ppfa.org
Woman’s Health Alliance, Marva Sadler,
richard.muniz@ppfa.org
Southwestern Women’s Surgery Center,

Counsel of Record

Allison Gilbert, M.D., Brookside Women’s
Medical Center PA d/b/a Brookside
Women’s Health Center and Austin
Women’s Health Center, Alamo City
Surgery Center PLLC d/b/a Alamo
Women’s Reproductive Services, Houston
Women’s Reproductive Services, Reverend
Daniel Kanter, and Reverend Erika Forbes

Attorneys for Planned Parenthood of
Greater Texas Surgical Health
Services, Planned Parenthood South
Texas Surgical Center, Planned
Parenthood Center for Choice, and
Dr. Bhavik Kumar

ADDITIONAL COUNSEL AND REPRESENTATION INFORMATION ON NEXT PAGE

MOLLY DUANE
Center for Reproductive Rights
199 Water St., 22nd Floor
New York, NY 10038
(917) 637-3631
mduane@reprorights.org
JAMIE A. LEVITT
J. ALEXANDER LAWRENCE
Morrison & Foerster, LLP
250 W. 55th Street
New York, NY 10019
(212) 468-8000
jlevitt@mofo.com
alawrence@mofo.com

JULIA KAYE
BRIGITTE AMIRI
CHELSEA TEJADA
American Civil Liberties Union
Foundation
125 Broad Street, 18th Floor
New York, NY 10004
(212) 549-2633
jkaye@aclu.org
bamiri@aclu.org
ctejada@aclu.org

LORIE CHAITEN
American Civil Liberties Union
Foundation
1640 North Sedgwick Street
Attorneys for Whole Woman’s Health,
Chicago, IL 60614
Whole Woman’s Health Alliance, Marva (212) 549-2633
Sadler, Southwestern Women’s Surgery rfp_lc@aclu.org

Center, Allison Gilbert, M.D., Brookside
Women’s Medical Center PA d/b/a
Brookside Women’s Health Center and
Austin Women’s Health Center, Alamo
City Surgery Center PLLC d/b/a Alamo
Women’s Reproductive Services,
Houston Women’s Reproductive
Services, Reverend Daniel Kanter, and
Reverend Erika Forbes
RUPALI SHARMA
Lawyering Project
113 Bonnybriar Rd.
Portland, ME 04106
(908) 930-6445
rsharma@lawyeringproject.org
STEPHANIE TOTI
Lawyering Project
41 Schermerhorn St., No. 1056
Brooklyn, NY 11201
(646) 490-1083
stoti@lawyeringproject.org

Attorneys for The Afiya Center,
Frontera Fund, Fund Texas Choice,
Jane’s Due Process, Lilith Fund for
Reproductive Equity, North Texas
Equal Access Fund

ADRIANA PINON
DAVID DONATTI
ANDRE SEGURA
ACLU Foundation of Texas, Inc.
5225 Katy Freeway, Suite 350
Houston, TX 77007
(713) 942-8146
apinon@aclutx.org
ddonatti@aclutx.org
asegura@aclutx.org

Attorneys for Houston Women’s Clinic

TABLE OF CONTENTS
ARGUMENT ........................................................................................................... 1
A.

Applicants Need Not Violate the Law Before Bringing Suit .................. 1

B.

Applicants Have Article III Standing ...................................................... 4

C.

The Claims Here Are Well Within Ex parte Young ................................ 7

D.

Applicants Will Be Irreparably Harmed ................................................. 9
1.

An Injunction Pending Appeal Will Redress Applicants’
Irreparable Harm ...................................................................... 9

2.

S.B. 8’s Purported “Undue Burden” Affirmative Defense
Is Meaningless ........................................................................ 12

3.

This Is Not an Emergency of Applicants’ Making..................... 12

E.

Injunctive Relief Is Available............................................................. 13

F.

This Court Can Grant the Requested Relief ....................................... 15

CONCLUSION ...................................................................................................... 16
CERTIFICATE OF SERVICE

-i-

ARGUMENT
Notably absent from the responses is any defense of the constitutionality of
Texas Senate Bill 8, 87th Leg., Reg. Sess. (2021) (“S.B. 8” or the “Act”). S.B. 8
unquestionably contravenes this Court’s precedent and will cause clear harm
beginning at midnight tonight, with abortions after six weeks banned throughout
Texas—something that has never been allowed to occur in any other state of the
nation in the decades since Roe. The urgency of the harm and the obvious violation
of this Court’s precedents calls out for this Court’s relief.
A.

Applicants Need Not Violate the Law Before Bringing Suit.

At bottom, Respondents argue that federal courts are powerless to prevent a
patently unconstitutional state law from taking effect. They maintain that the only
way for Applicants to challenge S.B. 8’s constitutionality is to violate the law; get sued
in state court by any number of claimants, no matter how large; and raise
constitutional defenses. State Resp’ts’ Opp’n 12. That is plainly incorrect.
In Ex parte Young, this Court crafted an exception to sovereign immunity
precisely to avoid this outcome. The Court explained that “harass[ment]” of
individuals “with a multiplicity of suits or litigation generally in an endeavor to
enforce penalties under an unconstitutional enactment” would itself “be an injury,”
the prevention of which “ought to be within the jurisdiction of a court of equity.” Ex

parte Young, 209 U.S. 123, 160 (1908). It went on to declare, emphatically, that “[i]f
the question of unconstitutionality, with reference . . . to the Federal Constitution, be
first raised in a Federal court, that court . . . has the right to decide it, to the exclusion
of all other courts.” Id. More recent cases applying Ex parte Young have underscored

the vital interest that this exception to sovereign immunity serves in our federal
system. See Va. Office for Prot. & Advoc. v. Stewart, 563 U.S. 247, 253, 255 (2011)
(explaining that Ex parte Young’s legal fiction is necessary to “permit the federal
courts to vindicate federal rights” (citation omitted)); Green v. Mansour, 474 U.S. 64,
68 (1985) (“Remedies designed to end a continuing violation of federal law are
necessary to vindicate the federal interest in assuring the supremacy of that law”
(citing Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 102 (1984); Milliken

v. Bradley, 433 U.S. 267 (1977))).
Accordingly, as this Court’s precedents make clear, and as Applicants detailed
in their opening brief, an “enforcement action is not a prerequisite to challenging”
S.B. 8. Susan B. Anthony List v. Driehaus, 573 U.S. 149, 158 (2014); Emergency Appl.
to Justice Alito for Writ of Inj. (“Emergency Appl.”) 19–20. Nor are Applicants
required to subject themselves to the irreparable harm of being forced to defend
potentially innumerable lawsuits across the state of Texas, incurring substantial
legal defense costs while also risking the imposition of ruinous monetary damages if
ultimately unsuccessful. See Perez v. Ledesma, 401 U.S. 82, 85 (1971); id. at 117–18
(Brennan, J., concurring in part and dissenting in part); cf. MedImmune, Inc. v.

Genentech, Inc., 549 U.S. 118, 134 (2007) (“The rule that a plaintiff must destroy a
large building, bet the farm, or (as here) risk treble damages and the loss of 80 percent
of its business before seeking a declaration of its actively contested legal rights finds
no support in Article III.”).

-2-

Respondents’ disregard of this body of law is especially striking because their
filings below recognize that the overwhelming risks of providing abortions under S.B.
8 mean that, in practice, without this Court’s interventions banned abortions will
cease in Texas in a manner of hours. App.242 (Respondent Dickson stating that “I
continue to believe that the Plaintiffs will comply with Senate Bill S.B. 8 and obviate
the need for private civil-enforcement lawsuits. Indeed, no rational abortion provider
or fund (in my view) would subject itself to the risk of civil liability under S.B. 8”).
Respondents also point to several lawsuits challenging limited aspects of S.B. 8
in Texas courts, suggesting that Plaintiffs could seek relief in state court as well.
State Resp’ts’ Opp’n 12. These lawsuits do not obviate the need for this Court to grant
the emergency relief requested by Applicants. The court presiding over these cases
temporarily restrained Texas Right to Life, its Legislative Director John Seago, and
individuals working in concert with them from instituting private enforcement
actions under S.B. 8, but the benefit of the order is limited to the petitioners in those
cases (two individuals and one organization who are not parties to these proceedings
and do not provide abortions), and it binds only the aforementioned defendants, who
represent a small subset of those who may sue under S.B. 8. See TRO, Van Stean v.

State, No. D-1-GN-21-004179 (Travis Cnty., Tex., 98th Jud. D., Aug. 31, 2021); TRO,
Tuegel v. State, No. D-1-GN-21-004316 (Travis Cnty., Tex., 261st Jud. D., Aug. 31,
2021); TRO, The Bridge Collective v. State, No. D-1-GN-21-004303 (Travis Cnty.,
Tex., 126th Jud. D., Aug. 31, 2021). Although the plaintiffs in those cases have also
sued state officials, the TROs do not apply to them, and S.B. 8 purports to erect a

-3-

statutory bar to suits against state officials in state court. S.B. 8 § 171.211. In fact,
Texas Right to Life has already posted a statement on its website declaring that the
TROs issued today will not deter the organization from suing Applicants and others
to enforce S.B. 8: “This ruling by a Travis County judge does not change Texas Right
to Life’s plans. Texas Right to Life is still legally authorized to sue others who violate
[S.B. 8], including abortionists.”1
The relief that Applicants seek from the governmental Respondents in this
case is therefore vital to preventing S.B. 8 from causing a widespread deprivation of
federal constitutional rights and other irreparable harm.
B.

Applicants Have Article III Standing

Respondents contend that Applicants lack Article III standing to challenge
S.B. 8 as against them. To the contrary, each Respondent contributes to the injury
that Applicants suffer under S.B. 8, and relief from this Court would redress that
injury.
First, Respondents claim that judges and clerks do not have a sufficiently
personal stake in the outcome of this case to give rise to an Article III “case or
controversy.” But the decisions on which they rely, none of which are by this Court,
were decided as a matter of “[p]rudential standing,” Bauer v. Texas, 341 F.3d 352,
358 (5th Cir. 2003); see also id. at 357, and do not analyze whether the plaintiffs in
those cases meet the three-part inquiry for Article III standing. Under those
prudential-standing decisions, judges “ordinarily” cannot be sued if there is an official
in another branch of government tasked with enforcing the statute. In re Justs. of

Sup. Ct. of P.R., 695 F.2d 17, 21–22 (1st Cir. 1982). So “a court should not enjoin
-4-

judges from applying statutes when complete relief can be afforded by enjoining all
other parties with the authority to seek relief under the statute,” id. at 23 (citing Gen.

Motors Corp. v. Buha, 623 F.2d 455, 463 (6th Cir. 1980); United Steelworkers of Am.
V. Bishop, 598 F.2d 408, 413 (9th Cir. 1979); Lamb Enters. Inc. v. Kiroff, 549 F.2d
1052, 1060 (6th Cir. 1977)), which “ordinarily” occurs by suing “the enforcement
official authorized to bring suit under the statute,” id. at 21.
But with S.B. 8, the Texas Legislature’s intent was to make it so that there
was no government official authorized to bring suit directly under the statute. So
here, even under the court of appeals’ decisions on which Respondents rely, there is
a “relief-related basis for including the judges in [the] law suit,” and it is “necessary
to enjoin a judge to ensure full relief to the parties.” Id. at 23. This accords with this
Court’s recognition “that federal injunctive relief against a state court proceeding can
in some circumstances be essential to prevent great, immediate, and irreparable loss
of a person’s constitutional rights”—exactly the situation here. Mitchum v. Foster,
407 U.S. 225, 242 (1972) (emphasis added) (citations omitted).
In any event, the reasoning in those decisions applies only to judges, not clerks.
The courts of appeals are in agreement that court clerks can be sued over the
constitutionality of a statute that they apply, including when performing a
ministerial duty like docketing proceedings. For example, the Eleventh Circuit held
that a court clerk was an appropriate defendant in a challenge to the constitutionality
of a post-judgment garnishment statute because of clerks’ responsibility to “docket[]
the garnishment affidavit” and “issu[e] the summons of garnishment.” Strickland v.

-5-

Alexander, 772 F.3d 876, 885 (11th Cir. 2014); see also id. at 879–81; Kitchen v.
Herbert, 755 F.3d 1193, 1201-02 (10th Cir. 2014) (concluding that plaintiffs had
standing to challenge prohibition on same-sex marriage by suing the clerk who denied
the marriage licenses by performing their duty under state law); Finberg v. Sullivan,
634 F.2d 50, 53-54 (3d Cir. 1980) (en banc) (holding that court clerk and sheriff were
proper defendants in challenge to post-judgment garnishment procedures because
the performance of their duties is the immediate cause of the plaintiff’s injury); accord

McNeil v. Cmty. Probation Servs., LLC, 945 F.3d 991, 994-96 (6th Cir. 2019) (holding
that a sheriff can be sued in an action for an injunction in challenge to state bail
statute because sheriffs detain individuals who cannot pay the bail set by the judge);

cf. Const. Party of Pa. v. Aichele, 757 F.3d 347, 367 (3d Cir. 2014) (finding standing
to sue state officials responsible for administering election code where, otherwise,
“[b]y the impossible logic of the Commonwealth, the Aspiring Parties will never have
a prospective remedy for their injury, because there will never be standing, because
there will never be causation, because the third parties who might challenge their
nomination papers are always unknown[.]”).
Under the three-prong Article III analysis, Applicants’ standing is clear, as the
district court concluded.

Applicants have an injury in fact from the risk of

enforcement actions and ruinous liability. Clerks and judges are officials who will
contribute to that harm by exercising their state-law duties to compel individuals into
S.B. 8 enforcement proceedings and issue S.B. 8’s mandatory penalties. Cf. Shelley v.

Kraemer, 334 U.S. 1, 14 (1948) (“A State acts by its legislative, its executive, or its

-6-

judicial authorities. It can act in no other way.”). And an injunction precluding Texas
judges and clerks from taking these actions with respect to S.B. 8 enforcement
proceedings would redress Applicants’ injury. And unlike the plaintiffs in Valley

Forge Christian College v. Americans United for Separation of Church & State, Inc.,
454 U.S. 464, 489 (1982), who were uninjured but argued that they should be
permitted to sue because no one else would, the district court correctly held that
Applicants have shown why the injury, causation, and redressability elements of
standing are plainly met. Once the three standing criteria are met, as they are here,
“a federal court’s obligation to hear and decide cases within its jurisdiction is virtually
unflagging.” Susan B. Anthony List, 573 U.S. at 167 (cleaned up).
As to the State Agency Respondents, their argument is premised on the notion
that the district court’s decision “is an incorrect reading of Texas law” about whether
they have indirect enforcement authority, State Resp’ts’ Opp’n 11, and they ask this
Court to interpret that state law in a manner at odds with its text. App.25–26. But
the State Agency Respondents never made this argument below, and even now it is
premised on a declaration from the Attorney General’s chief of staff, who has no
authority to speak for State Agency Respondents, much less the authority to bind
them going forward. And as the district court explained, state law requires state
agencies to enforce in certain circumstances, see App.22–24, a point to which
Respondents have no answer.

-7-

C.

The Claims Here Are Well Within Ex Parte Young

As the district court held, the government official Respondents are not entitled
to sovereign immunity. App. 22–27, 40–42. Nothing Respondents say before this
Court undermines that correct conclusion.
Respondents claim that the “act of docketing or hearing a case” cannot remove
a clerk or judge’s entitlement to sovereign immunity because “not every SB 8
enforcement suit violates the Constitution.” State Resp’ts’ Opp’n 15. That is incorrect.
As Plaintiffs have demonstrated, and as the district court agreed, their claims are
based not only on the constitutional harm that will occur if they lose in S.B. 8 statecourt proceedings, but also by being targeted with any of these abusive, one-sided
lawsuits that strip them of all the normal protections afforded to other civil litigants.
Emergency Appl. 7–8,19–20; D. Ct. ECF No. 19 at 28–31. Moreover, even on its own
terms, government official Respondents’ argument fails. The only conceivable
example they can muster is the possibility that someone will sue an abortion provider
for offering a post-viability abortion unprotected by the Fourteenth Amendment. But
as the officials themselves concede, Texas already bans abortion later in pregnancy,

see Tex. Health & Safety Code § 171.044, and Plaintiffs comply with that law. This
Court should reject this “invitation to pave the way for legislatures to immunize their
statutes from facial review.” Whole Woman's Health v. Hellerstedt, 136 S. Ct. 2292,
2319 (2016), as revised (June 27, 2016) (rejecting similar argument in the context of
severability).
Government official Defendants also contend that the instant lawsuit would
require the federal courts to “commandeer the entire Texas judiciary,” effectively
-8-

doing what sovereign immunity prohibits. State Resp’ts’ Opp’n 16. But Plaintiffs and
pregnant Texans are not barred from seeking relief in federal court simply because
the Texas Legislature has decided to give too many people the authority to violate
their constitutional rights. Petitioners are simply asking for an injunction forbidding
a government official from enforcing a state law in a manner contrary to federal
constitutional right.

If relief as to an individual judge is appropriate, as it

unquestionably is under this Court’s precedent and as confirmed by the district court,
App. 27–51, then the use of a Rule 23 class action as a mechanism to effect that relief
in an efficient way makes no difference with respect to sovereign immunity. See 28
U.S.C. § 2072. Moreover, clerks could comply with an injunction by for instance,
requiring filers to aver whether their petition is brought under S.B. 8, or they could
also seek guidance from legal authorities. See Campaign for S. Equal v. Bryant, 197
F. Supp. 3d 905, 909 (S.D. Miss. 2016) (discussing how clerks obtained guidance from
state attorney general as to how to implement injunction). This is not a jurisdictional
hurdle.
Finally, the state agency respondents contend that they are entitled to
sovereign immunity based on a belated claim that they “lack state law authority to
enforce S.B. 8, whether directly or indirectly.” State Resp’ts’ Opp’n 17. As discussed
above, however, this self-serving and belated statement from the Attorney General’s
chief of staff is not binding on the State, and does not in any event disclaim the state
officials’ authority to seek attorneys’ fees from Plaintiffs. Nor does it wrestle with
each of the applications to which Plaintiffs and the district court pointed as to the

-9-

state agency Respondents clear enforcement authority, App.22–24, including a
mandatory obligation to investigate or enforce in some circumstances, Tex. Occ. Code
§§ 160.052–.053; 22 Tex. Admin. Code § 176.2(a)(3), § 176.8(b).
D.

Applicants Will Be Irreparably Harmed
1.

An Injunction Pending
Irreparable Harm

Appeal

Will

Redress

Applicants’

Respondents’ suggestion that Applicants have unlawfully sought relief against
“non-parties” is wrong. Dickson Opp’n 2, 24–29. As specified in their Rule 20.3
statement, applicants have sought an injunction pending appeal against all
Respondents, including two putative classes of Texas judges and clerks. This Court
has authority to grant such relief.
Respondents have already made all of their arguments in the district court in
opposition to the motion for class certification; only Applicants’ reply brief is left to
be filed. Thus, it is undisputed that—should this Court vacate the stay of proceedings
in the district court—that court could promptly certify the classes at the same time
that it rules on Applicants’ fully briefed preliminary-injunction motion, or it could
provisionally certify the classes as part of a ruling granting the preliminary
injunction. There is no reason why this Court’s broad equitable authority under the
All Writs Act would not allow for the same relief. As this Court explained in United

States v. New York Telephone Company:
[U]nless appropriately confined by Congress, a federal
court may avail itself of all auxiliary writs as aids in the
performance of its duties, when the use of such historic aids
is calculated in its sound judgment to achieve the ends of
justice entrusted to it . . . . The Court has consistently
applied the Act flexibly in conformity with these principles
- 10 -

. . . . The power conferred by the Act extends, under
appropriate circumstances, to persons who, though not
parties to the original action or engaged in wrongdoing, are
in a position to frustrate the implementation of a court
order or the proper administration of justice, and
encompasses even those who have not taken any
affirmative action to hinder justice.
434 U.S. 159, 173–74 (1977) (cleaned up). Here, where the only non-parties against
whom Applicants seek relief are properly before the district court on a motion for
class certification, the Court clearly has authority to “achieve the ends of justice” by
preventing S.B. 8 enforcement actions to go forward in Texas state courts starting in
just hours. Id.
But even if this Court were to grant the injunction only as to the individually
named Applicants—who include the state’s chief law enforcement officer—that would
still provide essential relief. Even when not binding, “the persuasive force” of this
Court’s “opinion and judgment” may have a “deterrent effect,” including by “lead[ing]
. . . courts . . . to reconsider their respective responsibilities toward the statute.” Steffel

v. Thompson, 415 U.S. 452, 470 (1974). Indeed, in Roe v. Wade, this Court assumed
that state officials “will give full credence to this decision that the present criminal
abortion statutes of that State are unconstitutional.” 410 U.S. 113, 166 (1973). While
that decision pertained to a declaratory judgment, it is beyond dispute that, as a
practical matter, an injunction pending appeal issued by this Court against the
Attorney General and the other named defendants could send a strong signal as to
the unconstitutionality of this six-week abortion ban and thus allay at least some
Applicants’ fears about proceeding with lawful abortions in Texas tomorrow.

- 11 -

Multiple Applicants have confirmed that there are patients who have complied
with Texas’s mandatory twenty-four hour waiting period and could be seen tomorrow
morning if S.B. 8 is enjoined. One Applicant has patients waiting at the clinic ready
to be seen. Though that Applicant is planning to provide abortions until 11:59 PM, it
is likely that they will need to turn away patients at 12:00 AM. Another Applicant
has a minor patient who obtained a judicial bypass for her procedure but was not able
to be seen today. And because she is close to the legal limit for accessing abortion in
Texas, if she does not obtain care in the next day or two, she will be barred from
accessing her right to abortion in Texas.
2.

S.B. 8’s Purported “Undue Burden” Affirmative Defense Is
Meaningless

Respondent Dickson’s argument that S.B. 8’s purported “undue burden”
affirmative defense is sufficient to mitigate Applicants’ harms, see Dickson Opp’n 30–
31, is so unavailing that it appears nowhere in the government Respondents’ brief.
Respondent Dickson refers to a section of S.B. 8 candidly entitled “Undue Burden
Defense Limitations,” S.B. 8 § 171.209 (emphasis added), which distorts this Court’s
undue burden test beyond recognition. Indeed, no Respondent has ever even tried to
refute Applicants’ explanations in the courts below of how this “limit[ed]” defense
conflicts with this Court’s precedent—and that Texas permits people sued in S.B. 8
enforcement actions to raise a distorted version of this Court’s precedent as an
affirmative defense does not make this any less of an unconstitutional ban. A criminal
ban on abortion is still a ban even if physicians can theoretically choose to keep
performing abortions and raise a constitutional defense at their criminal trial. See,

- 12 -

e.g., Roe, 410 U.S. 113. The existence of this defense does not in any way mitigate the
need for this Court’s intervention.
3.

This Is Not an Emergency of Applicants’ Making

Respondents’ assertion that Applicants “waited” to file this suit, State Resp’ts’
Opp’n 1, is flatly wrong. Applicants moved as swiftly as possible to file this litigation,
which involves twenty-one Plaintiffs, eight Defendants, and numerous constitutional
claims. On July 13, Applicants filed their complaint and simultaneously moved for
summary judgment, supported by nineteen declarations. Just three days later,
Applicants filed a motion to certify two defendant classes. Applicants’ complaint
included all the factual assertions necessary to establish subject-matter jurisdiction,
standing, and the absence of sovereign immunity; that is all that was required of
Applicants. And they met all deadlines required of them under the district court’s
briefing schedule without delay. Moreover, Respondents’ delay has contributed to this
emergency. For example, two of the Respondents filed a meritless petition for
mandamus that resulted in a temporary stay of summary judgment briefing, see Pet.
for Writ of Mandamus, In re Clarkston, No. 21-50708 (5th Cir. Aug. 7, 2021),
ultimately forcing Applicants to file (at Respondents’ insistence) a motion for
temporary restraining order and preliminary injunction.
Through no fault of their own, thousands of pregnant Texans will lose
constitutionally protected access to abortion in mere hours unless this Court acts.
Applicants and their patients urgently need relief.

- 13 -

E.

Injunctive Relief Is Available

Even assuming this Court looks to Section 1983 with respect to its authority
to enter Applicants’ requested relief, Section 1983 permits injunctive relief “in any
action brought against a judicial officer for an act or omission taken in such officer’s
judicial capacity” where “a declaratory decree was violated or declaratory relief was
unavailable.” 42 U.S.C. § 1983.
1.

Declaratory relief is currently unavailable at this stage of the litigation,

and Respondents have not made any showing otherwise. Applicants initially moved
for summary judgment on the same day they filed their complaint (as expressly
permitted under Rule 56) because there was sufficient time for entry of a declaratory
judgment before September 1. After Respondents successfully delayed resolution of
that motion, Applicants moved for a preliminary injunction at certain Respondents’
insistence. See Pet. for Writ of Mandamus, 4, 5, 11, 20, In re Clarkston, No. 21-50708
(5th Cir. Aug. 7, 2021). Having successfully delayed a ruling on a declaratory
judgment past S.B. 8’s effective date, Respondents should not be heard to argue that
declaratory relief is still available.
Respondents suggest that “unavailable” must mean never available and that
“[t]emporary unavailability is not enough.” State Resp’ts’ Opp’n 20. But “the ordinary
meaning of the word ‘available’ is “‘capable of use for the accomplishment of a
purpose,” and that which “is accessible or may be obtained.’” Ross v. Blake, 578 U.S.
1174, 1858 (2016) (citations omitted). Consistent with that ordinary meaning,
something can be unavailable for a time and then later available. For example, the
President can fill certain vacancies while the Senate is “unavailable” due to a recess,
- 14 -

even though Congress will be available again. See N.L.R.B. v. Noel Canning, 573 U.S.
513, 530-33, 552 (2014). Similarly, the Federal Rules of Evidence use “unavailability”
to encompass “then-existing” temporary conditions. Fed. R. Evid. 804(a)(4).
2.

A court clerk is not a “judicial officer” as Congress used that term in

Section 1983. As Applicants explained—and Respondents nowhere refute—“judicial
officer” is used throughout the U.S. Code and the Federal Rules to refer to judges and
other jurists. There is no reason to think Congress intended a different meaning in
Section 1983. To the contrary, the Senate Judiciary Committee Report accompanying
the amendment to Section 1983 that added the “judicial officer” limitation explicitly
states that “judicial officers” means “justices, judges, and magistrates.” Senate Rep.
104-366, at 37; see id. (Section 1938 permits injunctive relief against “a State judge”
if declaratory relief is unavailable or the “State judge violated a declaratory decree”).
Respondents argue that clerks are judicial officers because they hold elected
office, work in the state court system, and act on behalf of or at the direction of judges.
But those facts, even if accurate, mean only that clerks are officeholders who act on
behalf of or at the direction of judicial officers; it does not make clerks themselves
judicial officers, as Congress used that term. Respondents also rely on decisions
holding that in certain circumstances, clerks are entitled to the same immunity as
judicial officers when acting at their direction, but that likewise does not make clerks
judicial officers themselves.
F.

This Court Can Grant the Requested Relief

This Court can and should vacate the stays entered by the court of appeals and
the district court. Respondents do not dispute that federal courts retain jurisdiction
- 15 -

to enter appropriate orders to preserve the status quo. Coleman v. Paccar Inc., 424
U.S. 1301 (1976) (Rehnquist, J., in chambers); United States v. United Mine Workers

of Am., 330 U.S. 258, 290 (1947) (holding that district court “unquestionably had the
power to issue a restraining order for the purpose of preserving existing conditions
pending a decision upon its own jurisdiction”). Respondents contend only that Federal
Rule of Civil Procedure 62(d) applies to appeals of decisions relating to injunctions.
State Resp’ts’ Opp’n 35–36. Regardless, Rule 62 does not purport to displace the
district court’s equitable powers.
Governmental Respondents also claim that recognizing an exception to the
judge-made divestiture rule and allowing the district court to decide the pending
preliminary-injunction motion would result in them losing their “dignitary interests.”
State Resp’ts’ Opp’n 36. But as they also recognize, and as the Fifth Circuit’s
mandamus order made clear, App.59–61, the district court could have decided their
motions to dismiss at the same time as the preliminary-injunction request without
offending their sovereign interests. And Respondents rightly do not claim any
dignitary harm from the district court deciding motions for which Respondents have
already submitted their opposition briefs.
CONCLUSION
The Court should enjoin enforcement of S.B. 8 or, at a minimum, vacate the
stays entered by the Fifth Circuit and the district court so that the district court may
again exercise its control over this case and consider the propriety of Applicants’
pending motions for class certification and a temporary restraining order or

- 16 -

preliminary injunction. Should it need further time to consider this request, it should
enter an administrative stay of the underlying district court and Fifth Circuit stays,
thus unquestionably restoring the district court’s jurisdiction to prevent imminent
harm.
Respectfully submitted.

JULIE A. MURRAY
RICHARD MUNIZ
Planned Parenthood Federation of
America
1110 Vermont Ave., NW, Suite 300
Washington, DC 20005
(202) 973-4800
julie.murray@ppfa.org
richard.muniz@ppfa.org

/S/ Marc Hearron
MARC HEARRON

Counsel of Record

Center for Reproductive Rights
1634 Eye St., NW, Suite 600
Washington, DC 20006
(202) 524-5539
mhearron@reprorights.org

MOLLY DUANE
Center for Reproductive Rights
199 Water St., 22nd Floor
Attorneys for Planned Parenthood
New York, NY 10038
of Greater Texas Surgical Health
Services, Planned Parenthood South (917) 637-3631
mduane@reprorights.org
Texas Surgical Center, Planned

Parenthood Center for Choice, and
Dr. Bhavik Kumar
JULIA KAYE
BRIGITTE AMIRI
CHELSEA TEJADA
American Civil Liberties Union
Foundation
125 Broad Street, 18th Floor
New York, NY 10004
(212) 549-2633
jkaye@aclu.org
bamiri@aclu.org
ctejada@aclu.org
LORIE CHAITEN
American Civil Liberties Union
Foundation
1640 North Sedgwick Street

JAMIE A. LEVITT
J. ALEXANDER LAWRENCE
Morrison & Foerster, LLP
250 W. 55th Street
New York, NY 10019
(212) 468-8000
jlevitt@mofo.com
alawrence@mofo.com

Attorneys for Whole Woman’s
Health, Whole Woman’s Health
Alliance, Marva Sadler,
Southwestern Women’s Surgery
Center, Allison Gilbert, M.D.,
Brookside Women’s Medical Center
PA d/b/a Brookside Women’s Health
Center and Austin Women’s Health
Center, Alamo City Surgery Center
PLLC d/b/a Alamo Women’s
Reproductive Services, Houston
- 17 -

Chicago, IL 60614
(212) 549-2633
rfp_lc@aclu.org
ADRIANA PINON
DAVID DONATTI
ANDRE SEGURA
ACLU Foundation of Texas, Inc.
5225 Katy Freeway, Suite 350
Houston, TX 77007
(713) 942-8146
apinon@aclutx.org
ddonatti@aclutx.org
asegura@aclutx.org

Attorneys for Houston Women’s
Clinic

Women’s Reproductive Services,
Reverend Daniel Kanter, and
Reverend Erika Forbes
RUPALI SHARMA
Lawyering Project
113 Bonnybriar Rd.
Portland, ME 04106
(908) 930-6445
rsharma@lawyeringproject.org
STEPHANIE TOTI
Lawyering Project
41 Schermerhorn St., No. 1056
Brooklyn, NY 11201
(646) 490-1083
stoti@lawyeringproject.org

Attorneys for The Afiya Center,
Frontera Fund, Fund Texas Choice,
Jane’s Due Process, Lilith Fund for
Reproductive Equity, North Texas
Equal Access Fund
August 31, 2021

- 18 -

CERTIFICATE OF SERVICE
I, Marc Hearron, a member of the bar of this Court, certify that on this 31st
day of August, 2021, I caused all parties requiring service in this matter to be served
with a copy of the foregoing by email and mail to the individuals listed below:
BETH KLUSMANN, ASSISTANT SOLICITOR GENERAL
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700

Attorney for Judge Austin Reeve Jackson,
Stephen Brint Carlton, Katherine A.
Thomas, Cecile Erwin Young, Allison
Vordenbaumen Benz, and Ken Paxton
HEATHER GEBELIN HACKER
Hacker Stephens LLP
108 Wild Basin Road South, Suite 250
Austin, Texas 78746
Tel.: (512) 399-3022

Attorney for Penny Clarkston
JONATHAN F. MITCHELL
Mitchell Law PLLC
111 Congress Avenue, Suite 400
Austin, Texas 78701
Tel.: (512) 686-3940

Attorney for Mark Lee Dickson
/s/ Marc Hearron
MARC HEARRON

Counsel of Record

